Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICARE HOSPICE CARE
     FOR BENEFICIARIES
   IN NURSING FACILITIES:
 COMPLIANCE WITH MEDICARE
  COVERAGE REQUIREMENTS




                    Daniel R. Levinson
                     Inspector General

                     September 2009
                     OEI-02-06-00221
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
E X E C U T I V E              S U      M M A R Y
Δ    E X E C U T I V E                    S U M M A R Y


                   OBJECTIVES
                   To determine the extent to which hospice claims for beneficiaries in
                   nursing facilities in 2006 met Medicare coverage requirements.


                   BACKGROUND
                   The Medicare hospice benefit allows a beneficiary with a terminal
                   illness to forgo curative treatment for the illness and instead receive
                   palliative care. The number of beneficiaries receiving hospice care has
                   increased significantly in recent years, and some studies suggest that
                   the use of hospice care has grown most rapidly in nursing facilities. In
                   addition, previous Office of Inspector General work has raised questions
                   about the hospice benefit for nursing home residents. However, little
                   subsequent research has been done to examine hospice care for these
                   beneficiaries, and almost no beneficiary-specific data exist.

                   This report determines the extent to which hospice claims for
                   beneficiaries in nursing facilities in 2006 met Medicare coverage
                   requirements. We based this study on data from a medical record
                   review of a stratified random sample of hospice claims for beneficiaries
                   in nursing facilities in 2006. A companion report, “Medicare Hospice
                   Care: Services Provided to Beneficiaries Residing in Nursing
                   Facilities,” determines the nature and extent of hospice services
                   provided to beneficiaries in nursing facilities.


                   FINDINGS
                   Eighty-two percent of hospice claims for beneficiaries in nursing
                   facilities did not meet at least one Medicare coverage requirement.
                   Eighty-one percent of claims did not meet at least one Medicare
                   coverage requirement pertaining to election statements, plans of care,
                   services, or certifications of terminal illness. An additional 1 percent of
                   claims were undocumented. Medicare paid approximately $1.8 billion
                   for these claims.
                   Claims from not-for-profit hospices were less likely to meet Medicare
                   coverage requirements than those from for-profit hospices. Specifically,
                   89 percent of claims from not-for-profit hospices did not meet Medicare
                   requirements, compared to 74 percent of claims from for-profit hospices.




 OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   i
                   MEDICARE COVERAGE REQUIREMENTS
E X E C U T I V E              S U      M M A R Y


                   Thirty-three percent of claims did not meet election requirements.
                   For 4 percent of claims, there were no election statements. For another
                   29 percent of claims, the election statements did not meet one or more
                   regulations. Most commonly, the statements did not explain that
                   hospice care was palliative rather than curative or that the beneficiaries
                   waived Medicare coverage of certain services related to their terminal
                   illnesses.

                   For another 9 percent of claims, the election statements contained
                   misleading language about the beneficiaries’ right to revoke the election
                   of hospice care.
                   Sixty-three percent of claims did not meet plan of care
                   requirements. For 1 percent of claims, the hospices did not establish
                   plans of care for the beneficiaries. For another 62 percent of claims, the
                   plans did not meet at least one Federal requirement. These plans of care
                   were not established by an interdisciplinary group; they did not include
                   necessary components, such as a detailed description of the scope and
                   frequency of services; or they did not specify intervals for review, as
                   required.
                   For 31 percent of claims, hospices provided fewer services than
                   outlined in beneficiaries’ plans of care. For 31 percent of claims, the
                   hospices did not provide the number of services outlined in the plans of
                   care that they established. Most commonly, the hospices provided
                   services to the beneficiaries but not as frequently as called for in the
                   plans of care. In the most extreme cases, there was no documentation
                   in the medical records of any visits for a particular service.
                   Four percent of claims did not meet certification of terminal illness
                   requirements. For 4 percent of claims, the certifications were missing
                   or did not meet one or more Federal requirements. For these claims,
                   the certifications did not specify that the individuals’ prognoses were for
                   life expectancies of 6 months or less if the terminal illness ran its
                   normal course; they were not supported by clinical information and
                   other documentation in the medical records; or they were not signed by
                   physicians.




 OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   ii
                   MEDICARE COVERAGE REQUIREMENTS
E X E C U T I V E              S U      M M A R Y




                   RECOMMENDATIONS
                   Based on the findings in this report, we recommend that the Centers for
                   Medicare & Medicaid Services (CMS):
                   Educate hospices about the coverage requirements and their
                   importance in ensuring quality of care. CMS should educate hospices
                   about the coverage requirements, particularly for election statements,
                   plans of care and their review, and certifications of terminal illness. It
                   should pay particular attention to not-for-profit hospices, given the higher
                   rate at which their claims did not meet requirements.
                   Provide tools and guidance to hospices to help them meet the
                   coverage requirements. These tools should include clear and specific
                   instructions, such as model text for election statements, a checklist of
                   items that must be in the plans of care, and guidance on complying with
                   the certification of terminal illness regulations.
                   Strengthen its monitoring practices regarding hospice claims. CMS
                   should effectively use targeted medical reviews and other oversight
                   mechanisms to improve hospice performance and compliance with
                   Medicare requirements, especially with respect to establishing plans of
                   care and providing services that are consistent with these plans of care.
                   Additionally, as we recommended in a previous report, CMS should
                   conduct more frequent certification surveys of hospices as a way to
                   enforce the requirements.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all three of our recommendations. In response to
                   our first recommendation, CMS stated that it has made presentations at
                   industry conferences and participated in other events with hospice
                   associations. CMS also noted that its Web site has a training broadcast
                   for State surveyors that is available to hospice providers. CMS stated
                   that it has educated providers about the requirements of the new
                   Conditions of Participation (CoP), issued June 5, 2008. These CoPs
                   address patient care planning and the care of patients who reside in
                   nursing facilities.

                   In response to our second recommendation, CMS stated that it has issued
                   new Hospice Program Interpretive Guidance, a tool used by providers
                   and State Survey agencies to determine compliance with the CoPs. CMS

 OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   iii
                   MEDICARE COVERAGE REQUIREMENTS
E X E C U T I V E              S U      M M A R Y


                   also stated that it held three satellite training sessions to educate
                   stakeholders on the new requirements. We encourage CMS to continue
                   educating providers and to give them detailed instructions that
                   encompass the new requirements as well as existing requirements that
                   have not been revised but are equally important. We also encourage
                   CMS to augment these efforts with specific tools that address the
                   problems outlined in this report, such as model text for election
                   statements.

                   In response to our third recommendation, CMS stated that it will
                   instruct Medicare contractors to consider the issues in this report when
                   prioritizing its medical review strategies or other interventions. CMS
                   also stated that it will share this report and relevant claim information
                   from OIG with the Recovery Audit Contractors.

                   We have made changes to the final report based on CMS’s technical
                   comments, as appropriate.




 OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   iv
                   MEDICARE COVERAGE REQUIREMENTS
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    Eighty-two percent of hospice claims for beneficiaries in
                    nursing facilities did not meet at least one Medicare
                    coverage requirement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    Thirty-three percent of claims did not meet election
                    requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    Sixty-three percent of claims did not meet plan of care
                    requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    For 31 percent of claims, hospices provided fewer services
                    than outlined in beneficiaries’ plans of care. . . . . . . . . . . . . . . . . . 15

                    Four percent of claims did not meet certification of
                    terminal illness requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                    Agency Comments and Office of Inspector General Response . . . 18


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    A: Hospice Payment Rates. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                    B: Confidence Intervals for Selected Estimates . . . . . . . . . . . . . . 21

                    C: Weighted Chi-Square Test Comparing Not-For-Profit
                       and For-Profit Hospices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Δ   I N T R O D U C T I O N



                  OBJECTIVE
                  To determine the extent to which hospice claims for beneficiaries in
                  nursing facilities in 2006 met Medicare coverage requirements.


                  BACKGROUND
                  The Medicare hospice benefit allows a beneficiary with a terminal
                  illness to forgo curative treatment for the illness and instead receive
                  palliative care, which is the relief of pain and other uncomfortable
                  symptoms. The number of beneficiaries receiving hospice care has
                  increased significantly in recent years. In fiscal year 2001,
                  580,000 Medicare beneficiaries received hospice care. In 2006, this
                  number increased by 62 percent to 939,000 beneficiaries. Medicare
                  spending on hospice care rose from $3.6 billion in 2001 to $9.2 billion in
                  2006. 1
                  Some studies suggest that the use of hospice care has grown most
                  rapidly in nursing facilities. 2 In addition, previous Office of Inspector
                  General (OIG) work has raised questions about the hospice benefit for
                  nursing home residents. For example, OIG reported that in 1995,
                  payment levels for hospice care in nursing homes may have been
                  excessive. 3 However, little subsequent research has been done to
                  examine hospice care for these beneficiaries, and almost no
                  beneficiary-specific data exist. 4




                    1 Centers for Medicare & Medicaid Services (CMS), “Medicare Hospice Expenditures and
                  Units of Care.” Available online at
                  http://www.cms.hhs.gov/ProspMedicareFeeSvcPmtGen/downloads/FY05update_hospice_exp
                  enditures_and_units_of_care.pdf. Accessed on March 27, 2009. CMS analysis of Medicare
                  Health Care Information System data for calendar year 2006 claims. Provided by CMS on
                  May 5, 2009.
                    2 Office of the Assistant Secretary for Planning and Evaluation (ASPE), “Use of
                  Medicare’s Hospice Benefit by Nursing Facility Residents,” March 2000; Medicare Payment
                  Advisory Commission, “Report to the Congress: Medicare Beneficiaries’ Access to Hospice,”
                  May 2002, p. 5.
                    3 OIG, “Hospice Patients in Nursing Homes,” OEI-05-95-00250, September 1997.
                    4 Government Accountability Office (GAO), “Medicare Hospice Care: Modifications to
                  Payment Methodology May Be Warranted,” GAO-05-42, October 15, 2004, pp. 4 and 20;
                  ASPE, “Synthesis and Analysis of Medicare’s Hospice Benefit,” March 2000.




OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   1
                  MEDICARE COVERAGE REQUIREMENTS
I N T R O D        U C T      I O N


                    This report is one in a series of four reports conducted by OIG that
                    examine the hospice benefit for nursing facility residents. This report
                    determines the extent to which hospice claims for beneficiaries in
                    nursing facilities met Medicare coverage requirements. A companion
                    report determines the nature and extent of hospice services provided to
                    beneficiaries in nursing facilities. 5
                    An earlier report in this series found that 28 percent of Medicare
                    hospice beneficiaries resided in nursing facilities for at least some time
                    while they received hospice care in 2005. 6 These beneficiaries were
                    more than twice as likely as beneficiaries in other settings to have
                    terminal diagnoses of ill-defined conditions, mental disorders, or
                    Alzheimer’s disease. Finally, another report in the series found a
                    number of cases in which the use of respite care for nursing facility
                    beneficiaries may have been inappropriate; these cases were referred to
                    CMS for corrective action. 7
                    The Medicare Hospice Benefit
                    The Tax Equity and Fiscal Responsibility Act of 1982 created the
                    Medicare hospice benefit for eligible beneficiaries under Medicare
                    Part A. 8 The goals of hospice care are to help terminally ill beneficiaries
                    continue life with minimal disruption and to support beneficiaries’
                    families and other caregivers throughout the process. The care may be
                    provided to individuals and their families in the home or other places of
                    residence, such as a skilled or other nursing facility. The care provided
                    to families and other caregivers includes counseling, training to provide
                    care for the individual, and bereavement counseling.

                    To be eligible for Medicare hospice care, a beneficiary must be entitled
                    to Part A of Medicare and be certified as having a terminal prognosis
                    with a life expectancy of 6 months or less if the disease runs its normal
                    course. Upon a beneficiary’s election of hospice care, the hospice agency




                      5 OIG, “Medicare Hospice Care: Services Provided to Beneficiaries Residing in Nursing
                    Facilities,” OEI-02-06-00223.
                      6 OIG, “Medicare Hospice Care: A Comparison of Beneficiaries in Nursing Facilities and
                    Beneficiaries in Other Settings,” OEI-02-06-00220, December 2007.
                      7 OIG, “Hospice Beneficiaries’ Use of Respite Care,” OEI-02-06-00222, March 2008.
                      8 The Tax Equity and Fiscal Responsibility Act of 1982, § 122, P.L. No. 97-248 § 122,

                      96 Stat. 324, 356, 42 U.S.C. § 1395x(dd).




 OEI-02-06-00221    MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   2
                    MEDICARE COVERAGE REQUIREMENTS
I N T R O D        U C T      I O N


                    assumes the responsibility for medical care related to the beneficiary’s
                    terminal illness and related conditions. This care is palliative, rather
                    than curative. The beneficiary waives all rights to Medicare payment
                    for services related to the treatment of the terminal condition or a
                    related condition but retains rights to Medicare payment for services to
                    treat conditions unrelated to the terminal illness. 9
                    Beneficiaries are entitled to receive hospice care for two 90-day periods
                    and unlimited 60-day election periods. 10 The periods need not be
                    consecutive. 11 At the start of each period of care, a physician must
                    certify that the beneficiary is terminally ill and has a life expectancy of
                    6 months or less. 12 Beneficiaries may revoke their election of hospice
                    care and return to standard Medicare coverage at any time. 13 Hospice
                    care is provided by Medicare-certified hospice agencies, hereinafter
                    referred to as hospices.

                    Medicare coverage requirements for hospice services. Pursuant to
                    regulations, hospice services must be reasonable and necessary for the
                    palliation or management of the terminal illness as well as related
                    conditions. Hospice services must also meet the following requirements
                    to be covered by Medicare: 14
                    • The individual must elect hospice care in accordance with
                      regulations.
                    • A plan of care must be established as set forth in regulation before
                      services are provided.
                    • The services must be consistent with the plan of care.

                    • A certification that the individual is terminally ill must be
                      completed as set forth in regulation.




                      9 42 CFR § 418.24.
                      10 Before 1990, hospice beneficiaries who were in hospice care for more than 210 days
                    and still required such care were provided care by the hospices without charge to Medicare
                    or the beneficiaries.
                      11 42 CFR § 418.21.
                      12 42 CFR § 418.22.
                      13 42 CFR § 418.28.
                      14 42 CFR § 418.200.




 OEI-02-06-00221    MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   3
                    MEDICARE COVERAGE REQUIREMENTS
I N T R O D        U C T      I O N


                    The election statement must explain the palliative rather than curative
                    nature of hospice care, acknowledge that coverage of certain Medicare
                    services are waived with the election, and include the signature of the
                    beneficiary or representative. 15 The plan of care must include an
                    assessment of the patient’s needs, address the management of
                    discomfort and symptom relief, and state in detail the scope and
                    frequency of services needed. The plan must be established by the
                    attending physician, the medical director or physician designee, and an
                    interdisciplinary group and be reviewed and updated at intervals
                    specified in the plan. 16 In addition, the services provided to the hospice
                    beneficiary must be consistent with the plan. Finally, the certification
                    of terminal illness must specify that the individual’s prognosis is for a
                    life expectancy of 6 months or less if the terminal illness runs its normal
                    course, must be supported by clinical information and other
                    documentation in the medical record, and must be signed by a
                    physician. 17
                    Hospice services. The Medicare hospice benefit covers nursing care,
                    medical social services, home health aide and homemaker services,
                    physician services, counseling, physical therapy, occupational therapy,
                    and speech-language pathology services. It also includes short-term
                    inpatient care, medical supplies (including drugs and biologicals), and
                    the use of medical appliances. In addition, the hospice benefit covers
                    any other service that is specified in the plan of care as reasonable and
                    necessary for the palliation and management of the terminal illness and
                    related conditions and for which payment may otherwise be made under
                    Medicare. 18
                    Levels of care. The Medicare hospice benefit has four levels of care, and
                    each level has an all-inclusive, prospectively determined daily rate. The
                    rate is paid to the hospice for each day that a beneficiary is in hospice
                    care, regardless of the number of services furnished. The four levels of
                    care are: routine home care, continuous home care, respite care, and
                    general inpatient care. Routine home care is the most common level of



                      15 42 CFR § 418.24(b).
                      16 42 CFR § 418.200.
                      17 42 CFR § 418.22.
                      18 42 CFR § 418.202(i).




 OEI-02-06-00221    MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   4
                    MEDICARE COVERAGE REQUIREMENTS
I N T R O D        U C T      I O N


                    care and includes, but is not limited to, nursing and home health aide
                    services. Appendix A provides detailed information on the four levels of
                    care and the payment rates.

                    Hospice care in nursing facilities. When a beneficiary resides in a nursing
                    facility, the hospice is responsible for providing the hospice services to
                    the beneficiary. The nursing facility provides room and board and care
                    unrelated to the terminal illness. Medicare reimburses the hospice
                    according to the level of care provided, and the beneficiary or a third
                    party payer pays the nursing facility for room and board costs. 19 In the
                    case of a nursing facility resident who is eligible for Medicaid, Medicaid
                    pays the hospice, and the hospice pays the nursing facility.
                    Related Work
                    A 2007 OIG report reviewed the hospice survey and certification
                    process. 20 It found that Federal oversight of hospices was limited.
                    Between FY 2000 and FY 2005, CMS required that hospices undergo
                    certification every 6 years. By contrast, nursing facilities and home
                    health agencies must undergo certification at least every 15 months and
                    36 months, respectively. OIG determined that State agencies certified
                    86 percent of hospices within the required timeframe, while 14 percent
                    averaged 3 years past due. In addition, 46 percent of hospices surveyed
                    were cited with health deficiencies, a substantial proportion of which
                    related to patient care planning and quality issues. The report also
                    found that CMS and State agencies rarely used methods other than
                    certification surveys and complaint investigations to monitor or enforce
                    hospice performance.


                    METHODOLOGY
                    We based this study on data from a medical record review of a stratified
                    random sample of hospice claims for beneficiaries in nursing facilities.




                      19 CMS, “Medicare Benefit Policy Manual,” Pub. No. 100-02, ch. 9, § 20.3. Available
                    online at http://www.cms.hhs.gov/manuals/Downloads/bp102c09.pdf. Accessed on
                    February 10, 2009.
                      20 OIG, “Medicare Hospices: Certification and Centers for Medicare & Medicaid Services
                    Oversight,” OEI-06-05-00260, April 2007.




 OEI-02-06-00221    MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   5
                    MEDICARE COVERAGE REQUIREMENTS
I N T R O D        U C T      I O N


                    Sample Selection
                    Using the National Claims History file, we extracted all Medicare
                    hospice claims that had service dates in 2006 and were received through
                    December 2006. Hospice claims typically cover a 1-month period but
                    could be for shorter periods of time. We matched the claims data to the
                    Medicare Enrollment Database by health insurance claim number to
                    identify the Social Security number for each beneficiary.

                    Because hospice claims in 2006 did not include place of service, we used
                    the Minimum Data Set (MDS) to identify nursing facility stay dates.
                    The MDS includes assessments on all residents in Medicare- or
                    Medicaid-certified nursing facilities. We used the MDS assessments
                    received from January 2004 through December 2006 to create a record
                    for each beneficiary of the dates when he or she resided in a nursing
                    facility.

                    We matched the hospice claims to these nursing facility stay dates by
                    the beneficiaries’ Social Security numbers to identify claims for
                    beneficiaries while they resided in nursing facilities. We created a file
                    that included all hospice claims that corresponded to beneficiaries’
                    nursing facility stays. This file included 812,668 hospice claims for
                    231,978 beneficiaries.

                    We selected a stratified random sample of 470 hospice claims from this
                    file. We stratified the sample to ensure that we included claims for
                    beneficiaries who had high-dollar amount claims and had received
                    hospice care while in nursing facilities for an extended period of time.
                    This stratum comprised all claims for hospice beneficiaries with an
                    average hospice reimbursement of $400 or more per day for at least
                    60 days while in nursing facilities during 2006. The other two strata
                    comprised claims for all remaining beneficiaries who received hospice
                    care while in nursing facilities: one stratum included all claims for
                    beneficiaries with maximum claim amounts of $3,000 or less, and the
                    other included all claims for beneficiaries with maximum claim amounts
                    of more than $3,000. We then selected a random sample of claims from
                    each stratum. See Table 1 for more details.




 OEI-02-06-00221    MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   6
                    MEDICARE COVERAGE REQUIREMENTS
I N T R O D          U C T          I O N



                  Table 1: Sample Selection
                                                                                                                   Initial       Final
                  Description of Strata                                               Population
                                                                                                                 Sample        Sample

                  Claims for beneficiaries with high   Average claim
                  average daily claim amounts and      amount > $400/day                       1,441                     35        33
                  extended nursing home stays          for at least 60 days


                                                       Maximum claim
                                                                                           279,697                       85        82
                  Claims for all other beneficiaries   amount < $3,000
                  with nursing home stays
                                                       Maximum claim
                                                                                           531,530                     350        335
                                                       amount > $3,000

                     Total claims                                                          812,668                     470        450


                     We excluded 12 claims from our sample because the hospices were
                     currently under investigation by OIG. We excluded an additional claim
                     because the beneficiary’s nursing facility stay information was
                     incomplete and an additional three claims because we were unable to
                     locate the hospices. 21 We also excluded another four claims because the
                     contractor erred in record collection. 22 Our final sample included
                     450 claims.

                     As a last step, we identified the names and addresses of the hospices
                     associated with each sampled claim by using the Online Survey and
                     Certification Reporting System (OSCAR). We matched the hospice
                     provider numbers in the claims file with the OSCAR data. We also
                     identified hospices that were for-profit and those that were not-for-profit
                     using a variable that indicated the type of provider ownership. In total,
                     43 percent of claims were from not-for-profit hospices and 53 percent of
                     claims were from for-profit hospices. The remaining 4 percent were for
                     services provided by government hospices.
                     Medical Record Review
                     We used a contractor to collect and review the medical records
                     associated with each sampled claim. For each claim, we requested that
                     the hospice provide the relevant hospice election statement, plan(s) of



                       21 The hospices’ telephone numbers were disconnected and the hospices could not be
                     reached by certified mail. We have referred these cases to CMS for appropriate action.
                       22 The contractor collected records for the wrong claim period in three cases and
                     contacted the wrong provider in one case.




OEI-02-06-00221      MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H        7
                     MEDICARE COVERAGE REQUIREMENTS
I N T R O D        U C T      I O N


                    care, 23 record of services provided (including those furnished under
                    arrangement or contract with the hospice), certification(s) of terminal
                    illness, and clinical information and other documentation that
                    supported the medical prognosis. Hospices are required to keep all of
                    this information in the clinical record that they establish for every
                    individual receiving care and services. 24 We requested these records for
                    the claim period and, if possible, for the 30 days preceding and the
                    30 days following the claim period.

                    The contracted reviewers included two registered nurses, each of whom
                    had experience with hospice care. For each claim, they used a
                    standardized instrument to review the beneficiary’s plan(s) of care, the
                    services provided by the hospice, and the beneficiary’s certification(s) of
                    terminal illness. As part of their review, they recorded the scope and
                    frequency of the services outlined in the plan of care, identified the
                    members of the interdisciplinary group who signed the plan, and noted
                    the intervals for review specified in the plan. Using the medical
                    records, the reviewers also recorded all hospice services provided to the
                    beneficiary during the claim period, with the exception of physician
                    services. 25 Finally, the reviewers determined whether the certification
                    of terminal illness specified a prognosis for a life expectancy of 6 months
                    or less, whether it was signed by a physician, and whether clinical
                    information and other documentation in the record supported the
                    medical prognosis.

                    The contractor reviewed a total of 447 claims. For the other three
                    claims, the hospices did not provide any documentation to review. 26 We
                    included these three claims when determining the total percentage of
                    claims that did not meet at least one Medicare coverage requirement.
                    We did not include them when determining the percentages of claims
                    that failed to meet each specific coverage requirement.




                      23 Although only one plan of care is in effect at any given time, some beneficiaries had
                    more than one plan of care during the claim period.
                      24 42 CFR § 418.74, Condition of Participation – Central Clinical Records.
                      25 Services provided by the beneficiary’s attending physician are not always included in
                    the hospice record.
                      26 We contacted the hospices by telephone and certified mail, but they did not provide the
                    requested records. We have referred these cases to CMS for appropriate action.




 OEI-02-06-00221    MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   8
                    MEDICARE COVERAGE REQUIREMENTS
I N T R O D        U C T      I O N


                    Analysis
                    Based on the results of the medical record review, we determined
                    whether the frequency of hospice services provided to the beneficiary
                    was consistent with the frequency called for in the plan of care. If the
                    record indicated that services were missing because the beneficiary
                    refused treatment, we considered the frequency of services provided to
                    be consistent with the plan of care.

                    We reviewed the hospice election statements associated with the sample
                    claims. We determined whether the statements addressed the
                    palliative rather than curative nature of hospice care and whether
                    certain Medicare services were waived by election. We also determined
                    whether the beneficiary or representative signed the statement.

                    We compared the percentages of claims from not-for-profit and for-profit
                    hospices that met the Medicare coverage requirements for election
                    statements, plans of care, services, and certifications of terminal illness.
                    We tested for statistically significant differences and noted in our
                    findings when these differences occurred.
                    See Appendixes B and C for the results of our statistical tests.
                    Limitations
                    This review determined whether hospice claims for beneficiaries in
                    nursing facilities met key Medicare coverage requirements. We did not
                    determine whether the claims met every requirement. For example, we
                    did not analyze whether plans of care were reviewed within specified
                    timeframes. Also, we did not report on specific levels of care, such as
                    general inpatient, because the results could not be projected to the
                    universe.

                    In addition, as part of the study, medical record reviewers determined
                    whether each beneficiary associated with the sample claims had a
                    certification of terminal illness and documentation supporting the
                    medical prognosis in his or her medical record. The reviewers did not
                    assess eligibility status for the hospice benefit or independently verify
                    the beneficiary’s prognosis for a life expectancy of 6 months or less.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.



 OEI-02-06-00221    MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   9
                    MEDICARE COVERAGE REQUIREMENTS
 Δ       F I N D I N G S

       Eighty-two percent of hospice claims for              Hospices must meet certain
beneficiaries in nursing facilities did not meet at          Federal requirements for their
                                                             services to be covered by Medicare.
      least one Medicare coverage requirement
                                                             In 2006, 82 percent of Medicare
                         hospice claims did not meet one or more coverage requirements.
                         Medicare paid approximately $1.8 billion for these claims.
                         Eighty-one percent of claims did not meet at least one Medicare
                         coverage requirement pertaining to election statements, plans of care,
                         services, or certifications of terminal illness. An additional 1 percent of
                         claims were undocumented. For these claims, the hospices did not
                         submit any records to support the claims, as required. Figure 1 and the
                         following findings address the percentage of claims that did not meet
                         each of the coverage requirements.

                            80%
       FIGURE 1:
    Percentage of
                                                               63%
  Hospice Claims
                            60%
     That Did Not
    Meet Specific
        Medicare
                            40%
        Coverage                           33%                                               31%
    Requirements
                            20%

                                                                                                                           4%
                             0%
                                   Claims that did not Claims that did not Claims that did not Claims that did not
                                     meet election     meet plan of care      meet service     meet certification
                                      requirements        requirements        requirements     of terminal illness
                                                                                                  requirements



                       Source: OIG analysis of medical record review results, 2008.
                       Note: Percentages are not mutually exclusive.



                         Claims from not-for-profit hospices were less likely to meet Medicare
                         coverage requirements than those from for-profit hospices. Specifically,
                         89 percent of claims from not-for-profit hospices did not meet Medicare
                         requirements, compared to 74 percent of claims from for-profit hospices.
                         This difference was statistically significant at the 95-percent confidence
                         level.




     OEI-02-06-00221     MEDICARE HOSPICE CARE FOR BENEFICIARIES     IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   10
                         MEDICARE COVERAGE REQUIREMENTS
F   I N D I N G        S



        Thirty-three percent of claims did not meet             Individuals who are terminally
                             election requirements              ill and entitled to Medicare
                                                                Part A may elect hospice care by
                      filing election statements. For hospice services to be covered by
                                                  27

                      Medicare, election statements must meet certain Federal regulations. 28
                      These regulations help to ensure that beneficiaries understand the
                      types of services they will be receiving as well as forgoing under the
                      hospice benefit. Ensuring informed consent for hospice election is
                      especially important as beneficiaries may be forgoing potentially
                      life-saving therapies.
                      For 4 percent of claims, there were no election statements. For another
                      29 percent of claims, the election statements did not comply with one or
                      more regulations. Most commonly, the statements did not explain that
                      hospice care was palliative rather than curative or that the beneficiaries
                      waived Medicare coverage of certain services related to their terminal
                      illnesses. In a few instances, the election statements were not signed by
                      the beneficiaries or representatives.

                      In addition, a greater percentage of claims from not-for-profit hospices
                      did not meet election requirements compared to claims from for-profit
                      hospices. Thirty-nine percent of claims from not-for-profit hospices did
                      not meet election requirements, compared to 25 percent of claims from
                      for-profit hospices. This difference was statistically significant at the
                      95-percent confidence level.
                      Some election statements misrepresented regulations
                      For another 9 percent of claims, the election statements contained
                      misleading language. The following excerpts provide examples of such
                      language:

                             “If I choose care or treatment that has not been preauthorized by
                             the hospice team or included in the plan, I understand that I have
                             removed myself from the hospice benefit effective immediately
                             upon my action.”




                        27 42 CFR 418.24(a). Physically or mentally incapacitated individuals may have their
                      representatives file the election statements.
                        28 42 CFR §§ 418.200 and 418.24.




    OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   11
                      MEDICARE COVERAGE REQUIREMENTS
F   I N D I N G        S


                             “If I choose to be admitted to a hospital that does not have a
                             contract with [named hospice], that admission will be considered a
                             decision to revoke my Medicare/Medicaid hospice benefit election.”

                      Pursuant to Federal regulations, a beneficiary does not revoke the
                      hospice benefit simply by entering a hospital without authorization from
                      his or her hospice. Rather, the individual must file a signed statement
                      with the hospice that revokes the election for the remainder of that
                      election period. 29 Further, to discharge a patient for cause, the hospice
                      must follow a number of steps outlined in Federal regulations, which
                      include making a serious effort to resolve the problem. 30


    Sixty-three percent of claims did not meet             For hospice services to be covered by
                    plan of care requirements              Medicare, a plan of care must be
                                                           established pursuant to Federal
                      regulations for each hospice beneficiary. 31 The plan of care helps to
                      ensure that those involved in hospice care know precisely “what is
                      supposed to be done, by whom, at what time, and for what purpose.” 32
                      For 1 percent of claims, the hospices did not establish plans of care for
                      the beneficiaries. For another 62 percent of claims, the plans did not
                      meet at least one Federal requirement. As discussed in more detail
                      below, these plans of care were not established by interdisciplinary
                      groups; they did not include necessary components, such as detailed
                      descriptions of the scope and frequency of services; or they did not
                      specify intervals for review, as required. See Table 2.




                        29 42 CFR § 418.28.
                        30 42 CFR § 418.26.
                        31 42 CFR § 418.200.
                        32 73 Fed. Reg. 32088, 32115 (June 5, 2008).




    OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   12
                      MEDICARE COVERAGE REQUIREMENTS
F   I N D I N G       S



                              Table 2: Percentage of Claims That Did Not Meet Plan of Care
                              Requirements
                                                                                                                                  Percentage
                                                                                                                                   of Claims*

                              Hospice did not establish plan of care                                                                      1%

                              Plan of care was not established by an interdisciplinary group                                            34%

                              Plan of care was missing a necessary component                                                            31%

                              Plan of care did not specify intervals for review                                                         22%

                              Plan of care did not meet at least one requirement listed above                                           63%

                            Source: OIG analysis of medical record review results, 2008.
                            *Percentages are not mutually exclusive.



                      In addition, a higher percentage of claims from not-for-profit hospices
                      did not meet plan of care requirements compared to claims from
                      for-profit hospices. Seventy-five percent of claims from not-for-profit
                      hospices did not meet plan of care requirements, compared to
                      52 percent of claims from for-profit hospices. This difference was
                      statistically significant at the 95-percent confidence level.
                      For 34 percent of claims, the plans of care were not established by
                      interdisciplinary groups
                      Federal regulations require that the plan of care be established by the
                      attending physician, the medical director or physician designee, and an
                      interdisciplinary group prior to providing care. 33 The interdisciplinary
                      group must include at least a doctor of medicine or osteopathy, a
                      registered nurse, a social worker, and a pastoral or other counselor. 34
                      For 34 percent of claims, the plans of care were not established by all of
                      the required members of the interdisciplinary groups. Most commonly,
                      pastoral or other counselors and social workers did not participate in
                      the plans’ establishment (for 31 percent and 22 percent of claims,
                      respectively). Registered nurses did not participate for 5 percent of
                      claims and physicians for 2 percent of claims.




                          33 42 CFR § 418.58(a).
                          34 42 CFR § 418.68(a).




    OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES          IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H        13
                      MEDICARE COVERAGE REQUIREMENTS
F   I N D I N G        S


                      For 31 percent of claims, the plans of care were missing a necessary
                      component
                      The plan of care must include an assessment of the patient’s needs;
                      identification of services, including the management of discomfort and
                      symptom relief; and a detailed statement of the scope and frequency of
                      needed services. 35
                      For 1 percent of claims, the plans of care were missing assessments of
                      the patients’ needs; for 1 percent of claims, the plans were missing the
                      management of discomfort and symptom relief; for 29 percent of claims,
                      the plans were missing the scope of at least one service; and for
                      1 percent of claims, the plans were missing the frequency of at least one
                      service. 36
                      Most commonly, plans of care were missing the scope of services for
                      home health aide and nursing services. For 24 percent of claims, the
                      plans of care called for home health aide services but did not include
                      any details about the scope of this care. Plans that provided the scope
                      listed specific home health aide tasks, such as feeding and bathing the
                      patient, helping with ambulation, and changing incontinence pads.
                      Similarly, for 17 percent of claims, the plans of care called for nursing
                      services but did not include any information about their scope. Plans
                      that included the scope described particular nursing duties, such as
                      assessing and monitoring patients for various issues, including
                      depression, anxiety, neuro-sensory status, pain type, and respiratory
                      status.

                      As noted earlier, the plans of care were missing the frequency of
                      services for 1 percent of claims. Other plans of care included
                      frequencies but were somewhat vague. For example, they called for
                      certain services to be provided as needed or included a range as wide as
                      one to seven visits per week or zero to five visits per month. 37




                        35 42 CFR § 418.58(c).
                        36 These percentages are not mutually exclusive.
                        37 For 8 percent of claims, the plans of care called for services to be provided as needed.




    OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   14
                      MEDICARE COVERAGE REQUIREMENTS
    F   I N D I N G          S



                      For 22 percent of claims, the plans of care did not specify intervals for
                      review
                      The plan of care must be reviewed and updated at intervals specified in
                      the plan. 38 Frequent reviews and updates are especially important among
                      the terminally ill population, given the potential for rapid changes in their
                      conditions.
 Table 3: Length of Intervals for Review     However, for 22 percent of the claims, the plans of
 in Plans of Care                            care did not include any such interval. See
                                             Table 3. For another 37 percent of claims, the
 Length of Intervals Percentage of Claims*   plans specified an interval of 90 days. It should
 7 days                               <1%    be noted that hospice beneficiaries are expected to
 14 days                              20%    live for 6 months or less. Therefore, beneficiaries
 60 days                              17%    who have plans with 90-day intervals could
 90 days                              37%    anticipate only one review during their expected
 Other intervals                       1%    time in hospice care.
 No interval specified                     22%
                                                             For 21 percent of claims, the plans of care had an
 No plan of care                            1%
                                                             interval of 14 or fewer days. These would be the
Source: OIG analysis of medical record review results, 2008.
*Percentages do not sum to 100 percent because of
                                                             only claims that would comply with a new rule,
rounding.                                                    effective December 2008, mandating that the plan
                                  be reviewed and revised as frequently as the patient’s condition
                                  requires, but no less than every 15 days. 39



     For 31 percent of claims, hospices provided fewer                    To be covered by Medicare,
   services than outlined in beneficiaries’ plans of care                 hospice services must be
                                                                          consistent with the plan of
                          care. 40 For 31 percent of claims, the hospices did not provide the
                          number of services outlined in the plans of care they established. Most
                          commonly, the hospices provided services to the beneficiaries but not as
                          frequently as called for in the plans of care. In the most extreme cases,
                          there was no documentation of any visits for a particular service.
                          Failure to provide home health aide services was the most frequent
                          error, but nursing and medical social services were also not provided as



                            38 42 CFR § 418.58(b).
                            39 73 Fed. Reg. 32088, 32206 (June 5, 2008).
                            40 42 CFR § 418.200.




     OEI-02-06-00221      MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   15
                          MEDICARE COVERAGE REQUIREMENTS
F   I N D I N G        S


                      often as the plans of care specified. For 8 percent of claims, the plans
                      called for home health aide services, but no services were documented
                      during the claim period. For another 12 percent of claims, the hospices
                      provided fewer home health aide services than specified in the plans.
                      For 9 percent of claims, the hospices provided fewer nursing services
                      than called for in the plans, and for 7 percent of claims, they provided
                      fewer medical social services. As mentioned earlier, hospices set their
                      own standards for the number of services that beneficiaries needed, and
                      these standards were, at times, quite broad.



    Four percent of claims did not meet certification              A certification that the
                    of terminal illness requirements               individual is terminally ill
                                                                   must be completed pursuant
                      to regulations in order for hospice services to be covered by Medicare. 41
                      For 4 percent of claims, the certifications were missing or did not meet
                      one or more Federal requirements. For these claims, the certifications
                      did not specify that the individuals’ prognoses were for life expectancies
                      of 6 months or less if the terminal illness ran its normal course, they
                      were not supported by clinical information and other documentation in
                      the medical record, or they were not signed by physicians.
                      A greater percentage of claims from not-for-profit hospices failed to
                      meet certification of terminal illness requirements compared to claims
                      from for-profit hospices. Six percent of claims from not-for-profit
                      hospices failed to meet these requirements, compared to 2 percent of
                      claims from for-profit hospices. This difference was statistically
                      significant at the 95-percent confidence level.




                        41 42 CFR § 418.200.




    OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   16
                      MEDICARE COVERAGE REQUIREMENTS
Δ   R E C O M M E N D A T I O N S

                  We found that 82 percent of hospice claims for beneficiaries in nursing
                  facilities in 2006 did not meet Medicare coverage requirements.
                  Medicare paid approximately $1.8 billion for these claims. The extent to
                  which hospices did not meet coverage requirements raises concerns
                  about the services that Medicare is paying for and the quality of care
                  that hospices are providing to beneficiaries during their last months of
                  life. The results of our review also indicate that CMS’s current
                  oversight procedures are inadequate and that it must do more to ensure
                  that hospices deliver care that meets Medicare requirements. Given
                  the nature of hospices’ noncompliance—which does not appear to be
                  related to the beneficiaries’ setting—these concerns extend to all
                  Medicare beneficiaries receiving hospice care.

                  Based on the findings in this report, we recommend that CMS:
                  Educate Hospices About the Coverage Requirements and Their Importance
                  in Ensuring Quality of Care
                  Our findings raise questions about whether hospices are providing
                  accurate information to individuals about the benefit upon election and
                  whether they are furnishing needed services to beneficiaries at an
                  especially vulnerable time in their lives. CMS should educate hospices
                  about the coverage requirements, particularly for election statements,
                  plans of care and their review, and certifications of terminal illness. It
                  should pay particular attention to not-for-profit hospices, given the
                  higher rate at which their claims did not meet requirements.
                  Provide Tools and Guidance to Hospices To Help Them Meet the Coverage
                  Requirements
                  These tools should include clear and specific instructions, such as model
                  text for election statements, a checklist of items that must be in the
                  plans of care, and guidance on complying with the certification of
                  terminal illness regulations.
                  Strengthen Its Monitoring Practices Regarding Hospice Claims
                  CMS should effectively use targeted medical reviews and other
                  oversight mechanisms to improve hospice performance and compliance
                  with Medicare requirements, especially with respect to establishing
                  plans of care and providing services that are consistent with these plans
                  of care. Additionally, as we recommended in a previous report, CMS
                  should conduct more frequent certification surveys of hospices as a way
                  to enforce the requirements.



OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   17
                  MEDICARE COVERAGE REQUIREMENTS
R   E C     O    M    M   E   N   D   A T    I   O   N   S



                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with all three of our recommendations. In response to
                          our first recommendation, CMS stated that it has made presentations
                          at industry conferences and participated in other events with hospice
                          associations. CMS also noted that its Web site has a training
                          broadcast for State surveyors that is available to hospice providers.
                          CMS stated that it has educated providers about the requirements of
                          the new Conditions of Participation (CoP), issued June 5, 2008. These
                          CoPs address patient care planning and the care of patients who
                          reside in nursing facilities.

                          In response to our second recommendation, CMS stated that it has
                          issued new Hospice Program Interpretive Guidance, a tool used by
                          providers and State Survey agencies to determine compliance with
                          the CoPs. CMS also stated that it held three satellite training
                          sessions to educate stakeholders on the new requirements. We
                          encourage CMS to continue educating providers and to give them
                          detailed instructions that encompass the new requirements as well as
                          existing requirements that have not been revised but are equally
                          important. We also encourage CMS to augment these efforts with
                          specific tools that address the problems outlined in this report, such
                          as model text for election statements.

                          In response to our third recommendation, CMS stated that it will
                          instruct Medicare contractors to consider the issues in this report
                          when prioritizing its medical review strategies or other interventions.
                          CMS also stated that it will share this report and relevant claim
                          information from OIG with the Recovery Audit Contractors.

                          We have made changes to the final report based on CMS’s technical
                          comments, as appropriate. For the full text of CMS’s comments, see
                          Appendix D.




    OEI-02-06-00221       MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   18
                          MEDICARE COVERAGE REQUIREMENTS
Δ      A P P E N D I X ~ A

                  Hospice Payment Rates

                  The Centers for Medicare & Medicaid Services (CMS) publishes general
                  hospice payment rates annually to be used for each level of care. 42 The
                  rates are adjusted based on the beneficiaries’ geographic locations. The
                  levels of care and the fiscal year 2006 Medicare unadjusted daily rates
                  for each are as follows:
                  • Routine Home Care ($126.49): The routine home care rate is paid to
                    the hospice for each day that the beneficiary is under the care of the
                    hospice and is not receiving one of the other categories of care.
                    Routine home care includes, but is not limited to, nursing and home
                    health aide services. Routine home care may be provided in the
                    home or other places of residence, such as a nursing facility.
                  • Continuous Home Care ($738.26): Continuous home care is allowed
                    only during periods of crisis in which a beneficiary requires
                    continuous care to achieve palliation or management of acute
                    medical symptoms. It is covered only as necessary to maintain the
                    terminally ill beneficiary at home. The care must be predominantly
                    nursing care. Continuous home care may be provided in the home
                    or other places of residence, such as a nursing facility. The
                    continuous home care rate is divided by 24 hours to determine an
                    hourly rate. A minimum of 8 hours must be provided.
                  • Respite Care ($130.85): Respite care is short-term inpatient care
                    provided to the beneficiary when necessary to relieve the
                    beneficiary’s caregiver(s). Respite care may be provided only on an
                    occasional basis and is not reimbursed for more than 5 consecutive
                    days. Respite care may be provided in a Medicare- or
                    Medicaid-certified hospice inpatient facility, hospital, skilled
                    nursing facility, or nursing facility.




                    42 CMS, “Medicare Claims Processing Manual,” Pub. No. 100-04, ch. 11, Transmittal 663,
                  Change Request 3977. Available online at
                  http://www.cms.hhs.gov/transmittals/downloads/R663CP.pdf. Accessed on February 10,
                  2009.




OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   19
                  MEDICARE COVERAGE REQUIREMENTS
A   P   P E N D    I X ~      A



                  • General Inpatient Care ($562.69): General inpatient care is for pain
                    control and symptom management that cannot feasibly be provided
                    in other settings. General inpatient care may be provided in a
                    Medicare- or Medicaid-certified hospice inpatient facility, hospital,
                    or skilled nursing facility.




OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   20
                  MEDICARE COVERAGE REQUIREMENTS
Δ          A AP PP PE EN ND DI IX X~ ~B B



Confidence Intervals for Selected Estimates



                                                                                                       95-Percent Confidence
 Estimate Description                                         n          Point Estimate
                                                                                                                     Interval

  Percentage of hospice claims that did not
                                                            450                           82%                                  77% – 85%
  meet Medicare coverage requirements

  Dollar amount paid by Medicare for claims
  that did not meet Medicare coverage                       450                 $1.8 billion                $1.7 billion – $1.9 billion
  requirements

  Percentage of undocumented claims                        450                           0.6%                                0.2% – 1.8%

  Percentage of claims that did not meet at
  least one Medicare coverage requirement
  pertaining to election statements, plans of               450                           81%                                  77% – 85%
  care, services, or certifications of terminal
  illness

  Percentage of claims that did not meet
                                                            447                           33%                                  28% – 38%
  election requirements

  Percentage of claims that did not meet plan
                                                            447                           63%                                  58% – 68%
  of care requirements

  Percentage of claims for which
  interdisciplinary groups did not establish the            447                           34%                                  29% – 39%
  plans of care

  Percentage of claims for which the plans of
                                                            447                           31%                                  27% – 36%
  care were missing a necessary component

  Percentage of claims for which the plans of
                                                            447                           22%                                  18% – 27%
  care did not specify the interval for review

  Percentage of claims for which the hospices
  provided fewer services than outlined in the              447                           31%                                  26% – 36%
  plans of care

  Percentage of claims that did not meet
                                                            447                             4%                                    2% – 6%
  certification of terminal illness requirements

Source: Office of Inspector General analysis of medical record review results, 2008.




      OEI-02-06-00221             MEDICARE HOSPICE CARE FOR BENEFICIARIES          IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   21
                                  MEDICARE COVERAGE REQUIREMENTS
Δ               A P P E N D I X ~ C



 Weighted Chi-Square Test Comparing Not-For-Profit and For-Profit Hospices


                                                     Percentage of Claims                 Percentage of Claims
                                                      From Not-For-Profit                      From For-Profit                           P-Value
                                                                Hospices                             Hospices
  Percentage of claims that did not meet
                                                                              89%                                         74%                0.0002
  Federal requirements*


  Percentage of claims that did not meet
                                                                              39%                                         25%                  0.009
  election requirements*


  Percentage of claims that did not meet
                                                                              75%                                         52%              <0.0001
  plan of care requirements*

  Percentage of claims for which the
  hospices provided fewer services than                                       31%                                         32%                    0.91
  outlined in the plans of care

  Percentage of claims that did not meet
  certification of terminal illness                                            6%                                           2%                 0.007
  requirements*

Source: Office of Inspector General analysis of medical record review results, 2008.
*Differences between percentages of claims from not-for-profit hospices and those from for-profit hospices were statistically significant
at the 95-percent confidence level.




       OEI-02-06-00221                MEDICARE HOSPICE CARE FOR BENEFICIARIES        IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H      22
                                      MEDICARE COVERAGE REQUIREMENTS
..     A P PEN D                                      x          D



       Agency Comments


             .,"'~'''''C'''.''.
             . ~'
           (,.,;~E                   DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                        . ---~~:-i~:   .... /-:
                                                                                                                  u
                                                                                                                      ôenters for Medicare & Medi~aid SelVices

                                                                                                                       Administrator
                                                                                                                       Washington, DC, 2020'1
                                                                                       2009 AUG .. 7 PH 3: 0 S¡

                                                                                       ..., ;c
                                                                                                  GENEI,A L


                                  DATE: 'AUG 0 ß 2009
                                  TO: Daniel R. Levinson
                                                  liispector Gen~ral

                                  FROM: 'Chãrlene Frizzerá
                                                  Acting Administrator

                                  SUBJECT: Offçe ofInspector General's Draft Report: "Medicare Hospice Care for
                                                  Bendìciaries in Nursing Facilities: Compliance with         Medicare Coverage
                                                  Requirements" (0 EI ~02-06-00221)


                                  Thank you for the oppottiinity to review and comment on the Offce of inspector General's
                                  (OlG) draft report entitled, "Medicare Hospice Care for Beneficiaries in Nursing Facilities:
                                  Compliance with Medicare Coverage Requirements."

                                  The objective of the report was to determine the extent to. which hospice claims for beneficiaries
                                  in nursing íacilitìes in 2006 met Medicare coverage requirements. As noted in the report, the
                                  number of   Medicare beneíìciaries receiving hospice care has increased significantly in recent
                                  years and some studies suggest that the,   number of beneficiaries receiving hospice care while
                                  residing in a nursing facility is also growing rapidly. This report found that 82 percent of
                                  hospice claims for beneficiaries in nursing facilities in 2006 did not meet at least one Medicare
                                  scope of benefìt or coverage requirement pertaining to election statements, plans of care,
                                  p1'vision of services, and certification ofterminal illness.


                                  OIG Recommendation

                                  Educate hospices about the coverage requirements and their impo11ance in ensuring quality of
                                  care.

                                  CMS Response

                                  The Centers for Medicare & Medicaid Services (CMS) concurs with this recommendation,
                                  When ejecting the Medicare hospice benefit, a Medicare beneficiary waives his/her right to have
                                  Medicare pay for services related to the treatment of the terminal condition for which hospice
                                  was elected (or a related condition), except when provided or   arranged for by the Medicare
                                  hospice. Therefore, it is critically important that Medicare beneficiaries are certified
                                  appropriately and understand the implications of electing to receive hospice care.




 o EI. 02.06. 00 221                   MEDICARE HOSPICE CARE FOR BENEFICIARIES IN NURSING FACILITIES: COMPLIANCE WITH                                            23
                                       MEDICARE COVERAGE REQUIREMENTS
A   P   P E N D       I X      ~      D




    OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   24
                      MEDICARE COVERAGE REQUIREMENTS
A   P   P E N D       I X      ~      D




    OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   25
                      MEDICARE COVERAGE REQUIREMENTS
A   P   P E N D       I X      ~      D




    OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   26
                      MEDICARE COVERAGE REQUIREMENTS
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Jodi Nudelman,
                  Regional Inspector General for Evaluation and Inspections in the
                  New York regional office, and Meridith Seife, Deputy Regional Inspector
                  General.

                  Nancy Harrison served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the New York
                  regional office who contributed to the report include Olivia Herman,
                  Michelle McInnis, and Bailey Orshan; central office staff who
                  contributed include Rob Gibbons and Sandy Khoury.




OEI-02-06-00221   MEDICARE HOSPICE CARE FOR BENEFICIARIES   IN   N U R SI N G FA CI L IT I ES : CO M P LI A N C E W I T H   27
                  MEDICARE COVERAGE REQUIREMENTS
